Credit Card Account Agreement

P-1896
Rev. 3/20

Table of Contents
SUMMARY OF KEY TERMS
AGREEMENT TERMS
Costs
Overdraft Protection
Payments
Card Account
Agreement (CA)
SUMMARY OF
KEY TERMS

Amendment (Changes) and Assignment
Additional Information
Arbitration Provision
Your Billing Rights
Definitions
Each bolded word or phrase is defined in the definitions section at the
end of this Agreement. A copy of the Agreement may be found online at
www.suntrust.com/personal-banking/credit-cards. The most current
version of this Card Account Agreement shall be published online. The
online version of the agreement supersedes any prior written version.

When are You bound
by the
CA Terms?

Your Card Account Agreement with SunTrust starts and You agree to
the terms when (1) You accept and/or sign the Card or (2) You or an
Authorized User use(s) the Card or Account, thus obtaining Credit from
SunTrust.

What types of
transactions might You
make with the Card/
Account and how are
these transactions
itemized on Your bill
each month?

• You may use Your Card/Account to make legal Purchases, Cash
Advances, Overdraft Advances and Balance Transfers. You are
responsible for transactions that You, other Cardholders, and
Authorized Users make, whether the transactions are legal or not.

What You Pay, when,
how, and what happens
if You pay late?

• SunTrust will send You a monthly Statement (bill). You agree to pay
all Authorized Charges on the Statement. You have the option of
paying in full the New Balance shown on each Statement or paying in
installments that at least equal the amount of the Minimum Payment
shown on Your Statement. In either case, the payment Due Date will
be at least 25 days after the Closing Date of Your Statement.

• Each type of transaction has different associated costs and terms;
each transaction type and associated costs are grouped together
and detailed in Your monthly Statement (Card Account bill) by
transaction type. The combined outstanding amount of each
transaction type is Your New Balance due on Your Account each
month (Billing Period). You must pay all Interest Charges, fees, and
Other Charges properly charged to Your Account.

• The Minimum Payment will include any amount past due or over
Your Credit Limit plus the greater of (1) $25.00, (2) 2% of the New
Balance, or (3) 1% of the New Balance plus current Interest Charges
and Other Charges. If the New Balance is less than $25.00, the
Minimum Payment will be the New Balance. If You pay more than the
Minimum Payment, You still must make the Minimum Payment on
subsequent Statements until You have fully paid what You owe. You
must pay in U.S. dollars, without restrictive terms, and in accordance
with the Standard Payment Instructions.
• If You do not pay at least the Minimum Payment by the Due Date,
SunTrust will charge a Late Payment fee, unless Your Account is
exempt from Late Payment fees. If You make a Late Payment, You
will be in Default and You may be subject to rate increases. If You
are in Default for any reason, SunTrust can require that the entire
outstanding full Balance on Your Account be immediately paid.
How will SunTrust apply
Your payments?

• You agree that the Minimum Payments on Your Account will be
applied in the order SunTrust selects.
• SunTrust may allocate Your Minimum Payments to Balances starting
with the lowest APR (Annual Percentage Rate). Payments in excess of
the Minimum Payment will generally be applied first to Balances

3

How will SunTrust apply
Your payments?

with the highest APR and any remaining portion to the other Balances
in descending order based on their APRs, unless SunTrust is required
by applicable law to use a different payment application method in
connection with a deferred interest or similar program.
• Payments are normally applied to restore Your available Credit
(the amount of Your unused Credit Limit). There may be a delay in
restoring Your available Credit until SunTrust determines whether
a payment is likely to be returned for insufficient funds or for some
other reason.

What other important
terms exist in the CA?

Your liability for unauthorized use of the Card – what to do/what
happens if Your Card is stolen.

What other important
terms exist in the CA?

Credit Limits, Authorization, and Convenience Checks – spending
limits/transaction authorization.
Individual Liability – each Cardholder is individually and jointly liable
for all Authorized Charges.
Termination – You or SunTrust can terminate or suspend Your Credit at
any time with/without cause.
Sharing of Information – how SunTrust safeguards your information/
how-when SunTrust may disclose Your information to others; refers to
SunTrust’s Privacy Statement.
Arbitration – the way in which You and SunTrust agree to resolve
claims; You have the right to opt out of arbitration as the agreed upon
claims resolution method.
Billing Dispute Rights – details Your rights if You dispute charges/are
not satisfied with good/services You procure from merchants using Your
Card/Account.
Defined Terms – defines all essential terms used in the CA.

Interest Charges and
Transaction Fees in
General:

SunTrust calculates Interest Charges using the Average Daily Balance
(including new transactions) method. SunTrust also uses compounded
interest in calculating Interest Charges. Compounded interest means
that interest is added to the principal that You owe and interest then
applied each successive Billing Period on the outstanding Balance and
new charges. [See the Card Mailer for disclosure of APRs, corresponding
DPRs (Daily Periodic Rate), Minimum Interest Charge, transaction
fees, and Other Charges.]

Interest Rates and
Interest Charges based
upon Credit Inquiries:

Your eligibility for Credit, initial and on-going Interest Rates, and
other CA terms may vary based upon Your credit worthiness. You
authorize SunTrust to make or have made any credit, employment,
and investigative inquiries about You that SunTrust deems appropriate
about: (1) whether SunTrust will provide You with a Card Account and
if so at what rates/terms, (2) modifications to Your Card Account rates/
terms while You maintain the Account, or (3) collection of Credit under
Your Account and other permissible purposes as the law allows.

Cost on Purchases:
SunTrust will charge the
Interest Charge (unless
inapplicable because
of the Grace Period) on
Your Purchases from the
transaction date.

• Any Purchase Balance not paid by the Due Date on the Statement
will incur an Interest Charge on the following month’s Statement.
• The cost for Purchases (DPR Interest Charge, when it applies) is the
Average Daily Balance on Purchases multiplied by (1) the number of
days in the Billing Period and (2) the applicable DPR.
• You will have a Grace Period on any new Purchases that are reflected
for the first time on Your current Statement if You pay Your New
Balance on time each Billing Period. Those new Purchases will not
be subject to an Interest Charge during the Billing Period reflected in
the current Statement if You satisfy the conditions for applicability of
the Grace Period.

4

Costs on Cash Advances:
SunTrust will charge the
Interest Charge on Your
Cash Advances from the
date they are posted to
Your Account.
Cost on Overdraft
Advances:
SunTrust will charge the
Interest Charge on Your
Overdraft Advances from
the date they are posted
to Your Account.

The costs for Cash Advances consist of (1) interest computed at the
applicable DPR on the Average Daily Balance (for Cash Advances) and
(2) Cash Advance transaction fees. The DPR Interest Charge is the
Average Daily Balance on Cash Advances multiplied by (1) the number
of days in the Billing Period and (2) the applicable DPR. Cash Advances
do not have a Grace Period.
The cost on Overdraft Advances (DPR Interest Charge) is the Average
Daily Balance on Overdraft Advances multiplied by (1) the number of
days in the Billing Period and (2) the applicable DPR. In accordance
with its Rules and Regulations for Deposit Accounts, SunTrust will assess
You its usual deposit account fee for such service, separately, and as
part of Your deposit Account fees. Overdraft Advances do not have a
Grace Period.

Costs on Balance
Transfers:
When SunTrust provides
You a Balance Transfer
check or Balance
Transfer request form
or when You request
a Balance Transfer,
SunTrust will charge the
Interest Charge on Your
Balance Transfer from
the date it is posted to
Your Account.

• The costs for Balance Transfers consist of (1) interest computed
at the applicable DPR on the Average Daily Balance (for Balance
Transfers) and (2) Balance Transfer transaction fees.

Foreign Currency
Exchange on
Non-US Transactions:

• All Purchase and Cash Advance transactions processed in a foreign
currency will be converted to U.S. dollars under the regulations
(which affect rate and actual date of the exchange) of the Card
Association before being charged to Your Account.

• The DPR Interest Charge is the Average Daily Balance on Balance
Transfers multiplied by (1) the number of days in the Billing Period
and (2) the applicable DPR.
• SunTrust may from time to time offer You Balance Transfer
Promotional Offers with different Balance Transfer Interest Charges
and transaction fees than the Card Mailer terms. Those different
Interest Charges and fees will be disclosed in the Balance Transfer
Promotional Offer. Unless SunTrust informs You otherwise, Balance
Transfers do not have a Grace Period.

• If Your Account has a foreign currency transaction fee, it will be
shown on the Card Mailer.
• Conversion may occur on a date other than the date of the transaction
or the date the transaction is posted to Your Statement, which may
affect the conversion rate used. If a Credit transaction is processed
and has a processing date different than the original transaction, then
the exchange rate of the Credit can be greater/less than that of the
original transaction.
Other Charges:

5

Late Payment Fee. Unless Your Account is exempt from Late Payment
fees, if SunTrust has not received at least the Minimum Payment by its
Due Date as shown on a Statement, SunTrust will add a Late Payment
fee to Your Purchase Balance based on the New Balance outstanding
as of the Closing Date for the Statement.
Annual Fee. If Your Account has an annual fee, it will be shown on the
Card Mailer, and SunTrust will add the annual fee to Your Purchase
Balance.
Returned Payment Fee. Unless Your Account is exempt from Returned
Payment fees, SunTrust will add a Returned Payment fee to Your
Purchase Balance if (1) a payment that You make or authorize is
returned to SunTrust unpaid; or (2) any Balance Transfer, Cash
Advance, or Promotional Balance check is dishonored for any reason.
This fee may be imposed even if Your payment is later re-presented to
and paid by Your financial institution.
Stop Payment Fee. SunTrust will add a $39.00 stop payment fee to
Your Purchase Balance if You ask SunTrust to stop payment on any
Convenience Check drawn on Your Account or on any Balance Transfer
request.

Other Charges:

Documentation Fee. SunTrust will provide copies of Statements,
sales drafts, etc., to You upon request. If You request copies of more
than two items during a Billing Period, SunTrust will add a fee to Your
Purchase Balance up to $5.00 for each additional copy unless prohibited
by applicable law. SunTrust will not impose any fee if Your request is
made in connection with written notice of a billing error.

Minimum Interest
Charges:

If You incur Interest Charges in any Billing Period, a minimum Interest
Charge will post to Your Account (such minimum Interest Charge
shown as the “Minimum Interest Charge” on Your Statement).

Changes

SunTrust can change some of Your rates and other terms in
accordance with applicable law. This table shows some possible
changes.

Type of change

What may trigger change

Advance notice of change

Interest Rate increase
on new charges

In the first year, a
Promotional Rate ends or
the Index Rate changes;
after that, any reason

Promotional Rate ends or Index Rate
changes, no notice; otherwise, 45 days

Interest Rate increase
on existing Balances

Promotional period ends,
Index Rate changes, or Your
Account is in a workout
arrangement

No notice requirement or per terms of
the workout arrangement

Increase or decrease to
Credit Limit

Any reason

None

Some fees and other
terms

Can change for any reason

Up to 45 days for certain fees and
Minimum Payment changes

Your Card Account Agreement with SunTrust starts and You agree to these terms when You accept
and/or sign the Card or You or an Authorized User use(s) the Card or Account, thus obtaining
credit from SunTrust.
Costs
You may use Your Card and Account to make Purchases, Cash Advances, Overdraft Advances and
Balance Transfers. Each type of charge will have its own Balance. Each type of Balance may have a
separate DPR and corresponding Interest Charges.
You agree to pay SunTrust for all credit extended on Your Account, plus any Interest Charges,
Other Charges and other fees and amounts properly charged to Your Account. You agree to use
Your Account only for legal transactions. It is not SunTrust’s responsibility to make sure You only
use Your Account for legal transactions, and You will remain responsible to pay for any transactions
whether legal or not. SunTrust may decline authorization for any Internet gambling transaction.
SunTrust will not be liable if You engage in an illegal transaction.
Interest Charges and
Transaction Fees

The conditions under which Interest Charges and transaction fees apply
depend upon whether the transaction is a Purchase, Cash Advance,
Overdraft Advance, Balance Transfer, or Promotional Offer.

SunTrust calculates Interest Charges using the Average Daily Balance (including new transactions)
method. SunTrust also uses compounded interest in calculating Interest Charges. Compounded
interest means that interest is added to the principal that You owe and interest then applied each
successive Billing Period on the outstanding Balance and new charges.
Interest Charges that apply on Your Account are set forth in the Card Mailer.
Interest Charge for
Purchases

Cost: Interest Charge (Average Daily Balance for Purchases x no. days
in Billing Period x DPR)

Any Purchase Balance not paid by the Due Date on the Statement will incur an Interest Charge on
the following month’s Statement. The cost for Purchases (DPR Interest Charge, when it applies) is
the Average Daily Balance on Purchases multiplied by (1) the number of days in the Billing Period
and (2) the applicable DPR.
6

You will have a Grace Period on any new Purchases that are reflected for the first time on Your
current Statement if You pay Your New Balance on time each Billing Period. Those new Purchases
will not be subject to an Interest Charge during the Billing Period reflected in the current
Statement if You satisfy the conditions for applicability of the Grace Period.
SunTrust will charge the Interest Charge (unless inapplicable because of the Grace Period) on Your
Purchases from the transaction date.
The DPR for Purchases (that are subject to Interest Charges) may or may not vary each month
based on changes in the Index Rate. The Card Mailer discloses whether the Account is subject to a
Variable or a Non-variable APR.
Interest Charge and
Transaction Fees for
Cash Advances

Costs: Interest Charge (Average Daily Balance for Cash Advances x no.
days in Billing Period x DPR) + Cash Advance transaction fees.

The costs for Cash Advances consist of (1) interest computed at the applicable DPR on the Average
Daily Balance (for Cash Advances) and (2) Cash Advance transaction fees.
The DPR Interest Charge is the Average Daily Balance on Cash Advances multiplied by (1) the
number of days in the Billing Period and (2) the applicable DPR. The Cash Advance transaction fee
is disclosed in the Card Mailer.
The DPR for Cash Advances may or may not vary each month based on changes in the Index Rate.
The Card Mailer discloses whether the Account is subject to a Variable or a Non-variable APR.
SunTrust will charge the Interest Charge on Your Cash Advances from the date they are posted to
Your Account. Cash Advances do not have a Grace Period.
Interest Charge for
Overdraft Advances

Cost: Interest Charge (Average Daily Balance for Overdraft Advances x
no. days in Billing Period x DPR)

The cost on Overdraft Advances (DPR Interest Charge) is the Average Daily Balance on Overdraft
Advances multiplied by (1) the number of days in the Billing Period and (2) the applicable DPR. In
accordance with its Rules and Regulations for Deposit Accounts, SunTrust will assess You its usual
deposit account fee for such service, separately, and as part of Your deposit account fees.
The DPR for Overdraft Advances may or may not vary each month based on changes in the Index
Rate. The Card Mailer discloses whether the Account is subject to a Variable or a Non-variable
APR.
SunTrust will charge the Interest Charge on Your Overdraft Advances from the date they are
posted to Your Account. Overdraft Advances do not have a Grace Period.
Interest Charge and
Transaction Fees for
Balance Transfers

Costs: Interest Charge (Average Daily Balance for Balance Transfers x
no. days in Billing Period x DPR) + Balance Transfer transaction fees.

The costs for Balance Transfers consist of (1) interest computed at the applicable DPR on the
Average Daily Balance (for Balance Transfers) and (2) Balance Transfer transaction fees.
The DPR Interest Charge is the Average Daily Balance on Balance Transfers multiplied by (1) the
number of days in the Billing Period and (2) the applicable DPR. The Balance Transfer transaction
fee for a ‘regular’ Balance Transfer or ‘Promotional Balance’ Balance Transfer is disclosed in
the Card Mailer; provided, that SunTrust may from time to time offer You Balance Transfer
Promotional Offers with different Balance Transfer Interest Charges and transaction fees than
the Card Mailer terms. Those different Interest Charges and fees will be disclosed in the Balance
Transfer Promotional Offer. SunTrust will add the Balance Transfer fee to the ‘Balance Transfer’
Balance of Your Account, unless SunTrust informs You when You make a Balance Transfer that the
Balance Transfer amount and Balance Transfer fee will be added to another category of Balance
(e.g., Purchases or Cash Advances).
Unless SunTrust informs You otherwise, Balance Transfers do not have a Grace Period. When
SunTrust provides You a Balance Transfer check or Balance Transfer request form or when You
request a Balance Transfer, SunTrust will charge the Interest Charge on Your Balance Transfer
from the date it is posted to Your Account.
The DPR for Balance Transfers (that are subject to Interest Charges) may or may not vary each
month based on changes in the Index Rate. The Card Mailer discloses whether the Account is
subject to a Variable or a Non-variable APR.
7

Interest Charge for
Promotional Balances

Cost: Interest Charge (Average Daily Balance for Promotional Balances
x no. days in Billing Period x Promotional Rate DPR)

SunTrust may from time to time offer You a Promotional Rate on certain Purchases or Balance
Transfers through Promotional Offers. If You accept a Promotional Offer, the resulting
Promotional Balance will be subject to the terms of that specific Promotional Offer and this
Agreement. In each Promotional Balance program, any new or different terms of the program
not disclosed in this Agreement (such as the APR, effective dates and other special terms) will be
detailed in the Promotional Offer.
The DPR Interest Charge is the Average Daily Balance on Promotional Balances multiplied by (1)
the number of days in the Billing Period and (2) the applicable DPR.
The Promotional Rate will apply to those Promotional Balances until the Promotional Offer
Termination Date. A Promotional Balance will not, after the Termination Date, be eligible for
another Promotional Rate.
After the Termination Date, Your Promotional Rate will change to Your regular Purchases DPR,
unless disclosed otherwise in the Promotional Offer. If the reason for the Termination Date is
a Delinquency Triggering Event, SunTrust will change the DPR that applies to Your new and
outstanding Promotional Balances to the Purchase DPR and corresponding APR, after SunTrust
provides You any notice required by applicable law.
Minimum Interest Charge
If You incur Interest Charges in any Billing Period, a minimum Interest Charge will post to Your
Account (such minimum Interest Charge shown as the “Minimum Interest Charge” on Your
Statement). If You incur Interest Charges in any Billing Period, the Minimum Interest Charge
will be no less than the amount disclosed in the Card Mailer. SunTrust may allocate the Minimum
Interest Charge among Your various Balances in the manner that SunTrust elects as permitted by
applicable law.
Foreign Currency Exchange for Non-US Transactions
All Purchase and Cash Advance transactions processed in a foreign currency will be converted
to U.S. dollars under the regulations of the Card Association before being charged to Your
Account. (The exchange rate that the Card Association uses to convert currency is a rate the Card
Association selects either from the range of rates available in the wholesale currency markets
for the applicable processing date (which rate may vary from the rate the Card Association itself
receives) or the government-mandated rate in effect on the applicable processing date.)
Conversion may occur on a date other than the date of the transaction or the date the transaction
is posted to Your Statement, which may affect the conversion rate used. If a Credit transaction is
processed and has a processing date different than the original transaction, then the exchange rate
of the Credit can be greater/less than that of the original transaction.
If Your Account has a foreign currency transaction fee, it will be shown on Your Card Mailer and
will be calculated after each Purchase transaction has been converted from a foreign currency.
Other Charges
Late Payment Fee. Unless Your Account is exempt from Late Payment fees, if SunTrust has not
received at least the Minimum Payment by its Due Date as shown on a Statement, SunTrust will
add a Late Payment fee to Your Purchase Balance based on the New Balance outstanding as of the
Closing Date for the Statement. The Late Payment fee is stated on the Card Mailer.
Annual Fee. If Your Account has an annual fee, it will be shown on the Card Mailer, and SunTrust
will add the annual fee to Your Purchase Balance. If an annual fee is applicable to Your Account,
SunTrust will provide You with notice of that annual fee in the manner required by law and explain
how You may terminate Credit availability under the Account to avoid paying any such annual fee.
If You do not terminate the Account, the terms disclosed will continue to apply.
Returned Payment Fee. Unless Your Account is exempt from Returned Payment fees, SunTrust
will add a Returned Payment fee to Your Purchase Balance if (1) a payment that You make or
authorize is returned to SunTrust unpaid (for example, if a check or an electronic funds transfer
to SunTrust is returned for insufficient funds or is returned because it is not signed or cannot be
processed for any reason); or (2) any Balance Transfer, Cash Advance, or Promotional Balance
check is dishonored for any reason. This fee may be imposed even if Your payment is later represented to and paid by Your financial institution. The Returned Payment fee is stated on the
Card Mailer.
8

Stop Payment Fee. SunTrust will add a $39.00 stop payment fee to Your Purchase Balance if
You ask SunTrust to stop payment on any Convenience Check drawn on Your Account or on any
Balance Transfer request.
Documentation Fee. SunTrust will provide copies of Items to You upon request. If You request
copies of more than two Items during a Billing Period, SunTrust will add a fee to Your Purchase
Balance up to $5.00 for each additional copy unless prohibited by applicable law. SunTrust will not
impose any fee if Your request is made in connection with written notice of a billing error.
Overdraft Protection
If You elect to link Your SunTrust eligible Consumer Checking Account, Savings Account or Money
Market Savings Account to this SunTrust Credit Card for overdraft protection (the “Protected
Account”), funds will be transferred from Your Credit Card Account (the “Protector Account”)
into Your Protected Account when checks, bill pay, or other debit transactions would cause Your
Protected Account to be overdrawn if those transactions are paid.
Transfers will be made in $100 increments from the Protector Account to Your Protected Account.
These transfers shall be considered a “Cash Advance” as that term is defined under Your Credit
Card Account Agreement. Fees and interest rates for Cash Advances are disclosed to clients in
their Credit Card Account Agreement and may be higher than those associated with other Credit
Card transactions. There is no Grace Period for Cash Advances, meaning finance charges will
accrue from the date the Cash Advance is posted to Your Credit Card Account. If the available
Credit on Your Credit Card Account (i.e. Credit Limit or the available Cash Advance limit) is
insufficient to cover the entire overdraft, we may make transfers to pay individual debit Items up to
the available accessible Credit on Your Credit Card Account. For example, if Your deposit account
has a Balance of $10.00 and a check or other debit item for $80.00 is presented for payment, which
if paid would cause Your deposit account to be overdrawn, a transfer of $100 will be made from
Your Credit Card Account to Your deposit account and an overdraft protection Cash Advance of
$100 will post to this Account. We will also charge an additional Overdraft Protection transfer fee
to Your Protected Account for each day a transfer is made, as disclosed in the Personal Deposit
Accounts Fee Schedule.
Be advised that we reserve the right to not initiate transfers to cover overdrafts and to return the
debit item(s) for non-sufficient funds. By way of example only, we ordinarily will not initiate an
overdraft transfer or advance funds as a Cash Advance under the following circumstances: (i) if You
are in Default under Your Credit Card Account Agreement; (ii) if the Cash Advance would cause
You to exceed the available Credit for a given transaction; (iii) if Your Credit Card is in a closed or
blocked status (e.g. due to fraud); (iv) if You fail to make a Credit Card payment by its Due Date;
and/or (v) if You exceed any Credit Card limit on Your Credit Card Account. In these instances,
an overdraft or returned item fee for each debited item will be charged to the Protected Account,
which is disclosed in the Personal Deposit Accounts Fee Schedule.
Overdraft protection is only available for active Credit Card Accounts, but be advised that linking a
deposit account to a Credit Card does not automatically activate that Card. Conversely, cancelling
overdraft protection will not cancel a Credit Card.
A Cash Advance transfer to the Protected Account due to overdraft protection will not activate
Your Credit Card. Cancelling overdraft protection will not close Your Credit Card. However, closing
a Credit Card Account will cancel the overdraft protection service.
Payments
What You Pay, When, How, and what happens if You pay late
SunTrust will send Your Statement to the address that the Bank has on file for You. You agree
to pay all Authorized Charges on the Statement. You have the option of paying in full the New
Balance shown on each Statement or paying in installments that at least equal the amount of the
Minimum Payment shown on Your Statement.
In either case, the payment Due Date will be at least 25 days after the Closing Date. The Minimum
Payment will include any amount past due or over the Credit Limit plus the greater of (1) $25.00,
(2) 2% of the New Balance, or (3) 1% of the New Balance plus current Interest Charges and Other
Charges. The Minimum Payment amount will either be rounded up or down to the nearest dollar.
If the New Balance is less than $25.00, the Minimum Payment will be the New Balance. If You
pay more than the Minimum Payment, You still must make the Minimum Payment on subsequent
Statements until You have fully paid what You owe.
9

You must pay in U.S. dollars, without restrictive terms, and in accordance with the Standard
Payment Instructions. You must contact SunTrust at least 3 business days before an automated
payment is scheduled, if You want to stop payment on the amount You think is wrong.
If You do not pay at least the Minimum Payment by the Due Date, SunTrust will charge a Late
Payment fee, unless Your Account is exempt from Late Payment fees. If You make a Late
Payment, You will be in Default and You may be subject to rate increases. If You are in Default
for any reason, SunTrust can require that the entire full Balance on Your Account be immediately
paid. If You do not immediately pay SunTrust the entire full Balance due when required, except as
specifically addressed in the Arbitration Provision of this Agreement, You will be liable to SunTrust
for collection costs that SunTrust incurs, including reasonable attorneys’ fees and expenses of
legal actions to the extent permitted by applicable law. Where required by state law SunTrust will
provide You with notice and a right to remedy Your Default in accordance with that law. SunTrust’s
acceptance of a payment after the payment Due Date or after You have exceeded Your Credit
Limit does not waive SunTrust’s right to require immediate payment of Your entire full Balance.
How SunTrust will apply payments
You agree that the Minimum Payments on Your Account will be applied in the order SunTrust
selects in accordance with applicable law. SunTrust may allocate Your Minimum Payments to
Balances starting with the lowest APR. Payments in excess of the Minimum Payment will generally
be applied first to Balances with the highest APR and any remaining portion to the other Balances
in descending order based on their APRs, unless SunTrust is required by applicable law to use a
different payment application method in connection with a deferred interest or similar program.
Payments are normally applied to restore Your available Credit (the amount of Your unused Credit
Limit). There may be a delay in restoring Your available Credit until SunTrust determines whether
a payment is likely to be returned for insufficient funds or for some other reason.
Amendment (Changes)
IMPORTANT NOTICE: In accordance with applicable law, SunTrust may unilaterally change the
APRs, Other Charges, and other terms of this Agreement at any time. This includes modifications,
deletions and the addition of new provisions, including non-financial provisions (for example,
SunTrust may add provisions relating to SunTrust’s enforcement rights or the resolution of claims
and disputes). SunTrust will send You notice in the manner and method (written communication
or update to online Agreement) and time required by law for the changes being made to Your
Account and/or this Agreement. The online version of the Agreement is available at https://www.
suntrust.com/PersonalBanking/EverydayBanking/CreditCards. Changes to this Agreement will be
automatically effective on the date SunTrust specifies or provides an updated Agreement, except
as otherwise provided in any change in terms notice SunTrust provides. You are bound by changes
to this Agreement as of the date updates are published. However, use of Your Account is not
necessary for a change in terms to be effective. You will have the right to reject a change in terms
and pay off Your Account in the same manner and under the same terms and conditions as then in
effect, as described in any change in terms notice. SunTrust may terminate or suspend Your ability
to use the Account if You reject certain changes, to the extent permitted by applicable law and as
described in any change in terms notice that SunTrust provides.
Assignment Rights
SunTrust has the right to Assign its rights under this Agreement, the Account, and any amount
You owe to SunTrust. SunTrust may Assign its rights without my consent and without prior notice
to me. The rights and benefits of SunTrust under the Agreement and Account shall automatically
transfer to SunTrust’s successors and assigns, including any entity that acquires SunTrust and/or is
created through a merger with SunTrust. You do not have the right to assign or transfer Your rights
under this Agreement or the Account.
Additional Information
Your liability for unauthorized use of the Card
To report a lost/stolen Card call: 866.732.1683. State that You are reporting a lost/stolen
Card. You must notify the Bank promptly in the event of loss, theft, or unauthorized use of Your
Card. This notification responsibility means that You should regularly check Your Statements to
review charges that post to Your Account to confirm that unauthorized charges have not posted to
Your Account.
10

You may be liable for the unauthorized use of Your Card. If unauthorized use of Your Account
occurs, You agree to cooperate with SunTrust and law enforcement authorities in identifying the
unauthorized user. However, You will not be liable for unauthorized use that occurs after You
notify SunTrust orally or in writing of the loss, theft, or possible unauthorized use. In any case,
Your liability will not exceed $50 for each occurrence of loss or theft or any lesser amount required
by applicable law or the requirements of the Card Association. You may write to SunTrust at:
Cardholder Services, P.O. Box 621569, Orlando, FL 32862-1569.
Ownership of the Card
Your Card and any Convenience Checks or other Credit instrument or device that SunTrust
provides to You are SunTrust’s property and must be returned to SunTrust or SunTrust’s agent
immediately upon demand. At SunTrust’s request You will destroy Your Card, other Credit
instruments or devices and/or special checks, by cutting them in half and surrendering those items
to SunTrust or SunTrust’s agent by mailing them to SunTrust or dropping them off at SunTrust’s
office.
Credit Limits, Authorization, and Convenience Checks
Unless Your Account type or SunTrust permits You to exceed Your Credit Limit, You agree to not
exceed the Credit Limit that SunTrust establishes for You, but if You do, You agree to pay the
over Credit Limit amount as part of Your next Minimum Payment. SunTrust may raise or lower
Your Credit Limit at SunTrust’s discretion, as permitted by applicable law. SunTrust is not liable
to You for decreases that affect Your Credit Limit or spending limits. Each of You may request
an increase to the Credit Limit of a joint Account. If You were required to have a joint Account
because one of You was less than 21 years of age when Your Account was opened and that
individual remains less than 21 years of age when SunTrust considers raising the Credit Limit of
Your joint Account, SunTrust will not increase the Credit Limit until all of You approve and assume
in writing joint liability for an increase to the Credit Limit of the joint Account. SunTrust may
establish separate limits that restrict the amount of the Credit Limit available for Cash Advances
or Balance Transfers. SunTrust may decline authorization for any transaction at any time. SunTrust
is not liable for declining authorization for any transaction, regardless of SunTrust’s reason. All
transactions on Your Account are subject to approval based upon Your Account status, available
Credit, credit history and other factors. You may not stop the payment of any Card transaction.
SunTrust may reject and return unpaid any Convenience Check that You write for any reason.
You must pay SunTrust for any Convenience Check that SunTrust pays, even if SunTrust were
permitted to reject and return the Convenience Check, unless the Convenience Check constitutes
unauthorized use. SunTrust may refuse to issue Convenience Checks or, upon notice to You, refuse
to permit the use of Convenience Checks already issued. You may call SunTrust at 800.477.9702
to place a stop payment on an unpaid Convenience Check. SunTrust will charge the stop payment
fee. You must provide SunTrust the date, amount, name of payee, and the number of the
Convenience Check. If any information You provide is incorrect or if You do not afford SunTrust a
reasonable opportunity to act on Your request, SunTrust may not be able to stop payment. Once
a Convenience Check has been paid, SunTrust will not be able to reverse the payment. Your stop
payment request will remain valid for 6 months. You must renew Your request before it expires if
You want SunTrust to continue honoring the stop payment request after the initial 6 month period.
You agree to hold harmless and indemnify SunTrust from any losses, expenses and costs, including
attorneys’ fees incurred by SunTrust, for preventing or failing to prevent payment.
Individual Liability
You, as a Cardholder, are liable for all Credit obtained under Your Account(s), whether obtained
by You, another Cardholder or an Authorized User of the Account. If there is more than one
Cardholder on the Account, each of You is liable, jointly and severally, for all Credit obtained
under the Account(s), regardless of which of You obtains that Credit or benefits from it.

11

Termination
Either You or SunTrust may terminate this Agreement or suspend Your Credit privileges under this
Agreement at any time, with or without cause. You will not try to make any Purchases or Balance
Transfers or try to obtain any Cash Advances or Overdraft Advances on Your Account after Your
Credit privileges have been terminated or suspended. However, this Agreement will otherwise
remain in full force and effect until You pay all sums due SunTrust.
Applicable Law
Applicable Law. Except as expressly set forth in the Arbitration Provision of this Agreement, this
Agreement and the interpretation and enforcement thereof (including but not limited to the
exportation of interest rates) will be governed by Federal law applicable to SunTrust and, to the
extent not preempted by Federal law, the laws of the State of Georgia without regard to its conflicts
of law provisions and principles. If there is any conflict between any of the terms and conditions of
this Agreement and applicable Federal or State law, this Agreement will be considered changed to
the extent necessary to comply with the applicable law. You agree that all terms of this Agreement
are material to the determination of interest. SunTrust accepts this Agreement in its home state,
Georgia.
Military Lending Act
The Military Lending Act provides protections for certain members of the Armed Forces and their
dependents (“Covered Borrowers”). The provisions of this section apply to Covered Borrowers under
the Military Lending Act. If you would like more information about whether you are a Covered
Borrower and whether this section applies to you, please contact us at 1-844-310-5891. Statement
of MAPR. Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to
a member of the Armed Forces and his or her dependent may not exceed an Annual Percentage
Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1) the
costs associated with credit insurance premiums; (2) fees for ancillary products sold in connection
with the credit transaction; (3) any application fee charged (other than certain application fees for
specified credit transactions or accounts); and (4) any participation fee charged (other than certain
participation fees for a credit card account). Oral Disclosures. In order to hear important Military
Lending Act disclosures and payment information provided in this Agreement, please call 1-844-3105891. Applicability of Jury Trial Waiver, Class Action Waiver, and Arbitration Provision. The Jury Trial
Waiver, Class Action Waiver, and Arbitration Provision set forth in this Note do not apply to Covered
Borrowers under the Military Lending Act.
Jury Trial Waiver
UNLESS YOU ARE A COVERED BORROWER UNDER THE MILITARY LENDING ACT AND TO THE EXTENT
PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED TO ARBITRATION, YOU AND
SUNTRUST HEREBY KNOWINGLY, VOLUNTARILY, INTENTIONALLY AND IRREVOCABLY WAIVE THE RIGHT
TO A TRIAL BY JURY IN RESPECT TO ANY LITIGATION ARISING OUT OF THIS AGREEMENT, RELATING TO
THE ACCOUNT, ANY CREDIT TRANSACTION, OR ANY OTHER DISPUTE OR CONTROVERSY BETWEEN
YOU AND SUNTRUST OR ANY OF SUNTRUST’S EMPLOYEES, OFFICERS, DIRECTORS, PARENTS,
CONTROLLING PERSONS, SUBSIDIARIES, AFFILIATES, SUCCESSORS AND ASSIGNS.
Litigation Class Action Waiver
TO THE EXTENT PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED TO
ARBITRATION, YOU AND SUNTRUST HEREBY AGREE THAT ANY LITIGATION ARISING OUT OF THIS
AGREEMENT, RELATING TO THE ACCOUNT, ANY CREDIT TRANSACTION, OR ANY OTHER DISPUTE
OR CONTROVERSY BETWEEN YOU AND SUNTRUST OR ANY OF SUNTRUST’S EMPLOYEES, OFFICERS,
DIRECTORS, PARENTS, CONTROLLING PERSONS, SUBSIDIARIES, AFFILIATES, SUCCESSORS AND ASSIGNS
WILL PROCEED ON AN INDIVIDUAL BASIS AND WILL NOT PROCEED AS PART OF A CLASS ACTION,
COLLECTIVE ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION AND
YOU AND SUNTRUST HEREBY KNOWINGLY, VOLUNTARILY, INTENTIONALLY AND IRREVOCABLY WAIVE
ANY RIGHT TO PROCEED IN A CLASS ACTION, COLLECTIVE ACTION, PRIVATE ATTORNEY GENERAL
ACTION OR OTHER REPRESENTATIVE ACTION OR TO SERVE AS A CLASS REPRESENTATIVE.

12

Other Products and Services
SunTrust will, at Your request, arrange for an overnight courier to deliver additional or replacement
Cards on an expedited basis. The charge assessed by the overnight courier will be added to Your
Account Balance. From time to time, new products, optional services or enhancements (for
example, insurance or Card registration) may be offered on Your Account. SunTrust is not liable
for these features, services and enhancements, when they are the responsibility of a third party
provider. You agree to hold SunTrust harmless from any claims, actions or damages resulting from
Your use of any of these features, services or enhancements, when permitted by applicable law.
SunTrust reserves the right to adjust, add, or delete benefits and services at any time.
Credit Inquiries
You authorize SunTrust to make or have made any credit, employment, and investigative
inquiries that SunTrust deems appropriate related to the extension or collection of Credit under
the Account. If You dispute credit information SunTrust is reporting about You, You may notify
SunTrust at Cardholder Services, Attention: Dispute Department, P.O. Box 620548, Orlando, FL
32862-0548.
Consumer Reporting Agencies (Credit Bureaus)
It is standard banking industry practice and within federal and state law for SunTrust routinely to
provide data about customer loan repayment and transactions to consumer reporting agencies and
other creditors. SunTrust may report information about Your Account(s) to credit bureaus. Late
Payments, missed payments, or other Defaults on Your Account(s) may be reflected in Your credit
report.
Sharing of Information
SunTrust may, to the extent and in the manner permitted by applicable law, communicate
information about SunTrust’s experiences and transactions with You to consumer reporting
agencies, SunTrust’s affiliates, and others who may properly receive that information. You may
refer to SunTrust’s Privacy Statement for more details about how SunTrust collects, uses, retains,
discloses, and safeguards information about You and Your Account. SunTrust’s Privacy Statement
is provided when consumer Cardholders establish a customer relationship with SunTrust, once
each year while Cardholders maintain a customer relationship with SunTrust, and at other times
required by law. You may request an additional copy of SunTrust’s Privacy Statement by calling
SunTrust at 866.732.1683 or sending a written request to SunTrust at Cardholder Services,
Attention: Customer Service, P.O. Box 621629, Orlando, FL 32862-1629.
Waiver
SunTrust’s failure to exercise, or SunTrust’s delay in exercising, any of SunTrust’s rights under the
Agreement for any reason will not mean that SunTrust will be unable to exercise those rights later.
Severability
The invalidity of any provision of the Agreement will not affect the validity of any other provision.
Entire Agreement
This Agreement, as modified from time to time in accordance with applicable law by any change
in terms that SunTrust will deliver to You (in writing or via update to Agreement terms that
are published at www.suntrust.com/personal-banking/credit-cards), constitutes the entire
Agreement between You and SunTrust, and supersedes any prior negotiation or understanding
between You and SunTrust concerning the subject matter of this Agreement. Section headings are
for convenience only and are to be disregarded when interpreting this Agreement.
New Jersey Residents
All provisions of this Agreement are valid, enforceable and applicable in New Jersey.

13

Illegal Transaction
Any financial service that SunTrust provides pursuant to this Agreement may be used for any
transaction permitted by law in accordance with this Agreement. You agree that illegal use of any
financial service will be deemed an action of Default and/or breach of contract and that SunTrust
may terminate any such financial service and/or other related services at SunTrust’s discretion. You
will remain responsible for paying for a transaction, even if it is not permissible. If any illegal use
occurs, You also agree to waive any right to sue SunTrust for such illegal use or any activity directly
or indirectly related to it and indemnify and hold SunTrust harmless from any suits or other legal
action or liability, directly or indirectly, resulting from such illegal use.
Emergency Card Replacement and Cash Disbursement
You and any Authorized User agree and authorize SunTrust to provide Your personal data to
the Card Association, its members, or their respective contractors for the purpose of providing
Emergency Card Replacement and Emergency Cash Disbursement benefits to You on Your Account.
Arbitration Provision
READ THIS PROVISION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL IMPACT ON HOW DISPUTES
AND CLAIMS AND WE HAVE AGAINST EACH OTHER ARE RESOLVED.
YOU HAVE THE RIGHT TO REJECT THIS ARBITRATION AGREEMENT AS SET FORTH BELOW. If You
do not reject this arbitration agreement, for a Claim subject to arbitration, neither You nor we
will have the right to: (1) have a court or a jury decide the Claim; (2) engage in informationgathering (discovery) to the same extent as in court; (3) participate in a class action in court or
in arbitration; or (4) join or consolidate a Claim with claims of any other person. The right to
appeal is more limited in arbitration than in court and other rights in court may be unavailable
or limited in arbitration.
Claims Subject to Arbitration. A “Claim” subject to arbitration is any claim, dispute or controversy
between You and us (other than an Excluded Claim or Proceeding as set forth below), whether
preexisting, present or future, which arises out of or relates to the Account, these rules and
regulations, any transaction conducted with us in connection with the Account or these rules and
regulations, or our relationship. “Claim” has the broadest possible meaning and includes initial
claims, counterclaims, cross-claims, third- party claims and federal, state, local and administrative
claims. It includes disputes based upon contract, tort, consumer rights, fraud and other intentional
torts, constitution, statute, regulation, ordinance, common law and equity and includes claims
for money damages and injunctive or declaratory relief. “Claim” also includes disputes concerning
communications involving telephones, cell phones, automatic dialing systems, artificial or
prerecorded voice messages, text messages, emails or facsimile machines and alleged violations of
the Telephone Consumer Protection Act and other statutes or regulations involving telemarketing.
Upon the demand of You or us, Claim(s) will be resolved by individual (not class or class-wide)
binding arbitration in accordance with the terms specified in this arbitration agreement.
Special Definition of “We,” “Us” and “Our.” Solely for purposes of this arbitration agreement, the
terms “we,” “us” and “our,” in addition to the meanings set forth in these rules and regulations,
also refer to SunTrust’s employees, officers, directors, parents, controlling persons, subsidiaries,
affiliates, successors and assigns. “We,” “us” and “our” also apply to third parties if You assert a
Claim against such third parties in connection with a Claim You assert against us.
Excluded Claim or Proceeding. Notwithstanding the foregoing, “Claim” does not include any
dispute or controversy about the validity, enforceability, coverage or scope of this arbitration
agreement or any part thereof (including, without limitation, the Class Action Waiver set forth
below, this sentence, and/or the last sentence of the Survival and Severability paragraph below); all
such disputes or controversies are for a court and not an arbitrator to decide. However, any dispute
or controversy that concerns the validity or enforceability of the rules and regulations as a whole is
for the arbitrator, not a court, to decide. In addition, the following claims or proceedings will not be
subject to this arbitration agreement: (1) any individual action brought by You or us in small claims
court or Your state’s equivalent court, unless such action is transferred, removed, or appealed to
a different court; (2) the exercising of any self-help rights, including set-off as described in the
paragraph below titled “Right of Offset and Security Interest,” or (3) any individual action in court
by one party that is limited to preventing the other party from using a self- help remedy and that
does not involve a request for damages or monetary relief of any kind. The institution and/or
maintenance of any such right, action or litigation shall not constitute a waiver of the right of either
of the parties to compel arbitration regarding any other dispute subject to arbitration pursuant to
this arbitration agreement. Moreover, this arbitration agreement will not apply to any Claims that
14

are the subject of (a) a class action filed in court that is pending as of the effective date of this
arbitration agreement in which You are alleged to be a member of the putative class (however, You
and we will continue to be bound by any prior version of this arbitration agreement), or (b) a motion
to compel arbitration filed by us against You before the effective date of this arbitration agreement
pursuant to a prior version of this arbitration agreement (however, You and we will continue to be
bound by any prior version of this arbitration agreement).
Federal Arbitration Act. Notwithstanding any choice of law or other provision in these rules and
regulations, the parties agree and acknowledge that this agreement evidences a transaction
involving interstate commerce and that the Federal Arbitration Act (Title 9 of the United States
Code) (“FAA”) shall govern its interpretation and enforcement and proceedings pursuant thereto.
To the extent state law is applicable under the FAA, the law of the state governing Your account
relationship with us shall apply.
Arbitration Class Action Waiver. Notwithstanding any other provision of these rules and regulations,
if either You or we elect to arbitrate a Claim, neither You nor we will have the right: (a) to
participate in a class action, private attorney general action or other representative action in court
or in arbitration, either as a class representative or class member; or (b) to join or consolidate
Claims with claims of any other persons. No arbitrator shall have authority to conduct any
arbitration in violation of this provision. (Provided, however, that the Class Action Waiver does not
apply to any lawsuit or administrative proceeding filed against us by a state or federal government
agency even when such agency is seeking relief on behalf of a class of borrowers including You.
This means that we will not have the right to compel arbitration of any claim brought by such an
agency).
Arbitration Procedures. If You or we elect to arbitrate a Claim, the electing party must notify the
other party in writing. This notice can be given after the beginning of a lawsuit and can be given in
papers filed in the lawsuit. Otherwise, Your notice must be sent to SunTrust Bank Legal Department,
Attn: General Counsel- Arbitration Election, Mail Code 0643, 303 Peachtree Street, N.E., 9th Floor,
Atlanta, Georgia 30308, and our notice must be sent to the most recent address for You in our
files. Any arbitration hearing that You attend must take place in a venue reasonably convenient
to You. If a party files a lawsuit in court asserting Claim(s) that are subject to arbitration and the
other party files a motion to compel arbitration with the court which is granted, it will be the
responsibility of the party prosecuting the Claim(s) to commence the arbitration proceeding with
an arbitration administrator in accordance with this arbitration agreement and the administrator’s
rules and procedures. Even if all parties have opted to litigate a Claim in court, You or we may elect
arbitration with respect to any Claim made by a new party or any Claim later asserted by a party
in that or any related or unrelated lawsuit (including a Claim initially asserted on an individual
basis but modified to be asserted on a class, representative or multi-party basis). Nothing in that
litigation shall constitute a waiver of any rights under this arbitration agreement.
The arbitration will be administered by JAMS, 1920 Main Street, Suite 300, Irvine, CA 92614, www.
jamsadr.com, 1-800-352-5267. The rules and forms of JAMS may be obtained by writing to JAMS
at the address listed above or visiting their website. If JAMS is unable or unwilling to serve as
administrator, the parties may agree upon another administrator or, if they are unable to agree,
a court shall determine the administrator. No company may serve as administrator, without the
consent of all parties, if it adopts or has in place any formal or informal policy that is inconsistent
with and purports to override the terms of this arbitration agreement. The arbitration will proceed
in accordance with this arbitration agreement and the administrator’s rules and procedures in effect
at the time of commencement of the arbitration including any expedited procedures but in the
event of a conflict, the provisions of this arbitration agreement shall control.
A single arbitrator will be appointed by the administrator and, unless You and us agree otherwise,
must be a practicing attorney with ten or more years of experience or a retired judge. The
arbitrator will not be bound by judicial rules of procedure and evidence that would apply in a
court, nor by state or local laws that relate to arbitration provisions or proceedings. The arbitrator
will honor and enforce statutes of limitation and claims of privilege recognized under applicable
law. In determining liability or awarding damages or other relief, the arbitrator will follow the
applicable substantive law, consistent with these rules and regulations and the FAA, that would
apply if the matter had been brought in court. The arbitrator may award any damages or other
relief or remedies that would apply under applicable law to an individual action brought in court.
For Claim(s) that total less than $75,000 and at Your written request, we will pay all filing, hearing
and/or other fees charged by the administrator and arbitrator to You for Claim(s) asserted by You
in arbitration after You have paid an amount equivalent to the fee, if any, for filing such Claim(s)
in state or federal court (whichever is less) in the judicial district in which You reside. If You have
already paid a filing fee for asserting the Claim(s) in court, You will not be required to pay that
15

amount again. In addition, the administrator may have a procedure whereby You can seek a waiver
of fees charged to You by the administrator and arbitrator. We will always pay any fees or expenses
that we are required to pay by law or the administrator’s rules or that we are required to pay for
this arbitration agreement to be enforced. The arbitrator will have the authority to award attorneys
and expert witness fees and costs to the extent permitted by either these rules and regulations, the
administrator’s rules or applicable law. The arbitrator shall award You Your reasonable attorneys’
and expert witness fees and costs (a) if and to the extent You prevail on Claim(s) You assert against
us in an individual arbitration commenced by You, or (b) to the extent required under applicable law
for this arbitration agreement to be enforced. The arbitrator shall write a brief explanation of the
grounds for the decision. A judgment on the award may be entered by any court having jurisdiction.
Survival and Severability. This arbitration agreement shall survive the closing of Your Account
and the termination of any relationship between us, including the termination of these rules and
regulations. If any part of this arbitration agreement is deemed or found to be unenforceable for
any reason, the remainder shall be enforceable, except that: (a) The parties to these rules and
regulations acknowledge that the Class Action Waiver is material and essential to the arbitration
of any disputes between the parties and is non severable from this arbitration agreement. If the
Class Action Waiver is limited, voided or found unenforceable as to any Claim(s), then the parties’
arbitration agreement (except for this sentence) shall be null and void with respect to such Claim(s)
(but not as to any other Claim(s) that have been or are later brought), subject to the right to appeal
the limitation or invalidation of the Class Action Waiver. The parties acknowledge and agree that
under no circumstances will a class action be arbitrated; and (b) If a Claim is brought seeking public
injunctive relief and a court determines that the restrictions in the paragraph titled “Class Action
Waiver” or elsewhere in this agreement prohibiting the arbitrator from awarding relief on behalf of
third parties are unenforceable with respect to such Claim (and that determination becomes final
after all appeals have been exhausted), the Claim for public injunctive relief will be determined
in court and any individual Claims seeking monetary relief will be arbitrated. In such a case the
parties will request that the court stay the Claim for public injunctive relief until the arbitration
award pertaining to individual relief has been entered in court. In no event will a Claim for public
injunctive relief be arbitrated.
Effect of Arbitration Award. The arbitrator’s award shall be final and binding on all parties, except
for any right of appeal provided by the FAA. However, if the amount of the Claim exceeds $150,000
or involves a request for injunctive or declaratory relief that could foreseeably involve a cost or
benefit to either party exceeding $150,000, any party can, within thirty (30) days after the entry
of the award by the arbitrator, appeal the award to a three- arbitrator panel administered by the
Administrator. The panel shall reconsider anew any aspect of the initial award requested by the
appealing party. The decision of the panel shall be by majority vote. Reference in this arbitration
provision to “the arbitrator” shall mean the panel if an appeal of the arbitrator’s decision has been
taken. The costs of such an appeal will be borne in accordance with the above paragraph titled
“Arbitration Procedures.” Any final decision of the appeal panel is subject to judicial review only as
provided under the FAA. No arbitration award involving the parties will have any preclusive effect
as to issues or claims in any dispute involving anyone who is not a party to the arbitration, nor will
an arbitration award in prior disputes involving other parties have preclusive effect in an arbitration
between the parties to this agreement.
Notice and Cure; Special Payment. Prior to initiating a Claim, You may give us a written Claim
Notice describing the basis of Your Claim and the amount You would accept in resolution of the
Claim, and a reasonable opportunity, not less than thirty (30) days, to resolve the Claim. Such
a Claim Notice must be sent to us by certified mail, return receipt requested, at SunTrust Bank
Legal Department, Attn: General Counsel- Claim Notice, Mail Code 0643, 303 Peachtree Street,
N.E., 9th Floor, Atlanta, Georgia 30308. This is the sole and only method by which You can submit
a Claim Notice. If (i) You submit a Claim Notice in accordance with this Paragraph on Your own
behalf (and not on behalf of any other party); (ii) You cooperate with us by promptly providing the
information we reasonably request; (iii) we refuse to provide You with the relief You request; and
(iv) the matter then proceeds to arbitration and the arbitrator subsequently determines that You
were entitled to such relief (or greater relief), You will be entitled to a minimum award of at least
$7,500 (not including any arbitration fees and attorneys’ fees and costs to which You will also be
entitled). We encourage You to address all Claims You have in a single Claim Notice and/or a single
arbitration. Accordingly, this $7,500 minimum award is a single award that applies to all Claims
You have asserted or could have asserted in the arbitration, and multiple awards of $7,500 are not
contemplated.

16

Right to Reject Arbitration Agreement. You may reject this arbitration agreement and therefore
not be subject to being required to resolve any claim, dispute or controversy by arbitration. To
reject this arbitration agreement, You and only You personally, must send us written notice of Your
decision so that we receive it at the address listed below within forty-five (45) days of the opening
of Your Account. Such notice must include a statement that You wish to reject the arbitration
agreement section of these rules and regulations along with Your name, address, Account name,
Account number and Your signature and must be mailed to the SunTrust Bank Legal Department,
Attn: Arbitration Rejection, P.O. Box 4418, Mail Code 0643, Atlanta, GA 30302-4418. This is the sole
and only method by which You can reject this arbitration agreement and any attempt to reject
this arbitration agreement by any other person or through any other method or form of notice,
including the filing of a lawsuit, will be ineffective. You agree that Your rejection of this arbitration
agreement shall not be imputed to any other person or entity or be deemed to be a rejection of
this arbitration agreement by any person or entity other than You. Nor shall Your rejection of this
arbitration agreement eliminate the obligation of other persons or entities who wish to reject
this arbitration agreement to personally comply with the notice and time requirements of this
paragraph. Rejection of this arbitration agreement will not affect any remaining terms of these
rules and regulations and will not result in any adverse consequence to You or Your Account. You
agree that our business records will be final and conclusive with respect to whether You rejected
this arbitration agreement in a timely and proper fashion. This arbitration agreement provision
will apply to You and us and to Your Account unless You reject it by providing proper and timely
notice as stated herein.
Your Billing Rights
Keep this notice for future use. It informs You about Your rights and SunTrust’s responsibilities
under the Fair Credit Billing Act.
What to do if You find a mistake on Your Statement
• If You think there is an error on Your Statement, write SunTrust at:
◦ SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department
• In Your letter, give SunTrust the following information:
◦ Account information: Your name and Account number
◦ Dollar amount: The amount of the suspected error
◦ Description of problem: If You think there is an error on Your Statement, describe what You
believe is wrong and why You believe it is a mistake.
• You must contact SunTrust:
◦ Within 60 days after the error appeared on Your statement.
◦ At least 3 business days before an automated payment is scheduled, if You want to stop
payment on the amount You think is wrong.
• You must notify SunTrust of any potential errors in writing. You may also call SunTrust, but
SunTrust is not required to investigate any potential errors and You may have to pay the amount
in question unless You provide written notice of the suspected error.

17

What will happen after SunTrust receives Your letter
• When SunTrust receives Your letter, SunTrust must do two things:
◦ Within 30 days of receiving Your letter, SunTrust must inform You that SunTrust received Your
letter; SunTrust will also inform You if SunTrust has already corrected the error.
◦ Within 90 days after receiving Your letter, SunTrust must either correct the error or explain to
You why SunTrust believes the bill is correct.
• While SunTrust investigates whether or not there has been an error:
◦ SunTrust may not (1) attempt to collect the amount in question or (2) report You as delinquent
on that amount;
◦ The charge in question may remain on Your Statement, and SunTrust may continue to charge
You interest on that amount;
◦ While You do not have to pay the amount in question, You are responsible for the remainder of
Your Balance; and
◦ SunTrust may apply any unpaid amount against Your Credit Limit.
• After SunTrust finishes the investigation, one of two things will happen:
◦ If SunTrust made a mistake, You will not have to pay the amount in question or any interest or
other fees related to that amount; or
◦ If SunTrust does not believe there was a mistake, You will have to pay the amount in question,
along with applicable interest and fees; SunTrust will send You a statement of the amount You
owe and the date payment is due; and SunTrust may then report You as delinquent if You do
not pay the amount SunTrust states that You owe.
• If You receive SunTrust’s explanation but still believe Your bill is wrong, You must write to
SunTrust within 10 days telling SunTrust that You still refuse to pay. If You do so, SunTrust cannot
report You as delinquent without also reporting that You are questioning Your bill. SunTrust must
tell You the name of anyone to whom SunTrust reported You as delinquent, and SunTrust must
let those organizations know when the matter has been settled between SunTrust and You.
• If SunTrust does not follow all of the rules above, You do not have to pay the first $50 of the
amount You question even if Your bill is correct.
Your rights If You are dissatisfied with a Purchase
• If You are dissatisfied with the goods or services that You Purchase with Your Card/Account, and
You have tried in good faith to correct the problem with the merchant, You may have the right
not to pay the remaining amount due on the Purchase. To use this right, all of the following must
be true:
◦ The Purchase must have been made in Your home state or within 100 miles of Your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of these
conditions applies if Your Purchase was based on an advertisement SunTrust mailed to You, or
if SunTrust owns the company that sold You the goods or services.)
◦ You must have used Your Card for the Purchase. Purchases made with cash advances from an
ATM or with a check that accesses Your Account do not qualify.
◦ You must not yet have fully paid for the Purchase.
• If all of the criteria above are met and You are still dissatisfied with the purchase, contact
SunTrust in writing at:
◦ SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department
While SunTrust investigates, the same rules apply to the disputed amount as discussed above. After
SunTrust finishes the investigation, SunTrust will tell You SunTrust’s decision. At that point, if
SunTrust thinks You owe an amount and You do not pay, SunTrust may report You as delinquent.

18

Definitions
Account – The credit card Account(s) SunTrust approves for Your use that is/are subject to the terms
and conditions of this Agreement.
Agreement – Your Card Account Agreement with SunTrust for the Account, which contract is made
up of these terms and conditions, Your application or response to SunTrust’s solicitation, and the
documents that accompany delivery of Your Card (Card Mailer).
APR (Annual Percentage Rate) – The cost of Your Credit as a yearly rate. Different APRs may apply
to different Balances on Your Account, such as Your Balance on Purchases or Your Balance on Cash
Advances. SunTrust uses the applicable APR to calculate the Interest Charge that You owe on the
Account. The Card Mailer discloses applicable APRs and whether the Account is subject to a Variable
or Non-Variable APR.
Non-Variable APR – The DPR subject to the Non-Variable Rate will be based on an APR that does
not vary with changes in an Index Rate. The Card Mailer discloses the APR for the Non-Variable
Rate as of the date Your Account was opened.
Variable APR –The variable APR will be based on the Index Rate plus a Margin. The Card Mailer
discloses the APR for the Variable Rate. An increase in the Index Rate may result in a higher
Minimum Payment.
Assign – SunTrust Assigns Your Account and this Agreement if SunTrust sells or transfers to another
party any or all of SunTrust’s rights or obligations under this Agreement, including any amount
that You owe SunTrust on the Account. If SunTrust Assigns Your Account, the party who receives
the assignment will have SunTrust’s rights under this Agreement, subject to the extent of the
assignment.
Authorized Charges – Any Purchases, Balance Transfers, Cash Advances, Overdraft Advances, and
Promotional Balances that You or any Authorized User makes on the Account and any fees and
Interest Charges owing on the Account.
Authorized User – Any person You authorize to use the Card (whether Cardholder or not and
whether or not such use exceeds the limit You authorized or intended).
Average Daily Balance – To get the Average Daily Balance, SunTrust adds the outstanding Balance
(including new transactions and deducting payments and credits) for each transaction type for each
day in the Billing Period; SunTrust adds together all the daily Balances for each separate transaction
type, and then divides by the number of days in the Billing Period.
Balance – Every charge on the Account, including transactions that You make and Interest Charges
and fees that SunTrust assesses, falls into a specific Balance, such as the Balance on Purchases,
Balance Transfers, Cash Advances, Overdraft Advances, and Promotional Balances. Fees that are
based on a specific transaction are assigned to the same Balance as the applicable transaction.
For example, a cash advance fee on a Purchase is assigned to the Balance on Purchases. Fees that
are not specific to a given transaction with the Card (like a Returned Payment) are assigned to the
Balance on Purchases.
Balance Transfer – Credit SunTrust extends resulting from a Balance Transfer that You request
by any means (including telephone, Convenience Check, or Balance Transfer request form that
SunTrust provides). SunTrust’s policy is not to allow You to transfer any Balance You owe from any
other account with SunTrust or SunTrust’s respective affiliates. SunTrust may permit You to transfer
balances from other credit card companies or financial institutions to Your Account up to the amount
of Your Credit Limit. If You request an amount that SunTrust does not approve, SunTrust may process
a partial Balance Transfer for less than the amount that You requested or SunTrust may decline the
entire request. SunTrust is not liable if SunTrust does not approve a requested Balance Transfer (in
whole or in part). Balance Transfer requests that are incomplete or illegible will not be approved.
SunTrust reserves the right to make Balance Transfers in the order SunTrust selects. In order to
preserve Your dispute rights, You should not transfer balances from other credit card companies or
financial institutions if those balances are in dispute. You should allow up to 8 weeks for Balance
Transfers to be completed. You should continue to monitor the other accounts and continue to pay
the minimum payment due on those accounts until You receive statements from those creditors
showing that the balances have been paid in full. This confirmation may not happen until after the
transactions appear on the Statement SunTrust sends You. You are solely responsible for any late
payments, ongoing finance charges and disputed amounts on Your other accounts. If You want Your
other accounts closed following a Balance Transfer, You are responsible for doing so.

19

Billing Period – The time interval between the dates of Your regular billing Statements. Your first
Billing Period may be less than one month. All Credit terms, including Minimum Interest Charges,
will apply in each Billing Period including the first Billing Period.
Card – Your Card is/are the physical Card(s), the Account number, or any device (such as a check)
that You or an Authorized User can use to access Your Account.
Card Association – the applicable credit card association through which Your Card Account is
sponsored (e.g., Visa® or MasterCard®).
Cardholder – The natural person to whom SunTrust issues a Card at his/her request or
application, or a natural person who has agreed to pay obligations arising from another person’s
use of the Card or Account.
Card Mailer – the mail that delivers Your Card and includes Your Agreement and other terms
associated with Your Card Account when SunTrust sends Your Card to You.
Cash Advance – Credit SunTrust extends to You in the form of a loan from the Account. A Cash
Advance occurs when You: (1) obtain cash from an ATM (automated teller machine), (2) obtain
cash from any other source, (3) make a wire transfer, (4) buy foreign currency, (5) buy traveler’s
checks, (6) buy money orders, (7) buy lottery tickets, or (8) buy gambling chips or wagers.
Cash Advance Credit Limit – The maximum amount of Credit that SunTrust establishes from
time to time and makes available to You on the Account for Cash Advances. Any Cash Advance
Credit Limit SunTrust establishes may be less than the Credit Limit that otherwise applies to Your
Account. The Cash Advance Credit Limit is stated on the Card Mailer.
Cash Equivalent Transactions – Transactions performed using a merchant or service provider that
Visa® or MasterCard® identifies as a seller of travelers checks, foreign currency, money orders,
wire transfers, lottery tickets, funds used for wagers or gambling, or similar products or services.
These transactions are treated as Cash Advances on Your Account.
Closing Date – The last day of a Billing Period.
Convenience Check – A check that the Bank provides which You may use to access Your Account
to make a Purchase or a Balance Transfer.
Covered Provider – means any third party that provides any product or service in connection
with the Credit if (and only if) You assert a Claim against such third party in connection with a
Claim You assert against SunTrust.
Credit – means the credit extension You receive under this Agreement.
Credit Limit – Your Credit Limit will appear on each monthly Statement.
For Accounts with Spending Limits: The maximum amount of Credit that SunTrust establishes
from time to time and makes available to You on the Account.
For Accounts with no Pre-Set Spending Limits: No pre-set spending limit does not mean
unlimited spending. Your Account will be assigned a revolving Credit Limit. SunTrust may restrict
the amount of Your Credit Limit that is available for Balance Transfers. For Cash Advances,
You may only spend up to Your assigned Cash Advance Credit Limit. For Purchases, You may
be authorized to exceed Your assigned Credit Limit. Each transaction You make is authorized
based on factors such as (1) Your Account history; (2) credit record; (3) absence or presence
of suspected fraud; and (4) performance and delinquency patterns. If You attempt to make a
Purchase transaction that exceeds your Credit Limit, Your Account will be evaluated based
upon the length of time Your Account has been open and Account usage, performance and
delinquency patterns or presence of suspected fraud; and (4) performance and delinquency
patterns. If You attempt to make a Purchase transaction that exceeds your Credit Limit,
Your Account will be evaluated based upon the length of time Your Account has been open
and Account usage, performance and delinquency patterns with SunTrust or with Your other
creditors, and Your ability to pay. In certain circumstances, SunTrust may ask for additional
financial records to authorize a transaction. If You are authorized to exceed Your Credit Limit,
You will be required to pay, as part of your Minimum Payment, the amount by which Your
New Balance exceeds Your Credit Limit. SunTrust encourages You to provide us with notice of
forthcoming unusual activity, such as, high transaction amounts, high velocity, or changes in
geographic patterns.

20

Default – Subject to applicable law and any right that You may have under that law, SunTrust may
require immediate payment of Your entire Account Balance and You will be in Default if (1) You
do not make at least the Minimum Payment on or before the payment Due Date, (2) a Cardholder
or Authorized User exceeds or tries to exceed the Credit Limit without SunTrust’s permission,
(3) A payment You make is rejected or cannot be processed, (4) SunTrust reasonably believes
that a Cardholder’s ability to pay SunTrust is materially impaired (for example, if You become
subject to bankruptcy or insolvency proceedings or if an attachment or garnishment proceedings
are instituted against You or Your property), (5) You provide SunTrust with false, misleading or
fraudulent information or a false signature, (6) a Cardholder dies or is legally declared incompetent
or incapacitated, (7) You fail to comply with any provision of this Agreement, (8) You or an
Authorized User makes illegal use of any financial service under the Account or (9) You or an
Authorized User continues to use an Account or Card that has been closed.
Delinquency Triggering Event – A Delinquency Triggering Event occurs if You fail to make a
Minimum Payment within 60 days of its payment Due Date.
DPR (Daily Periodic Rate) – the daily periodic rate is calculated from the applicable APR. The
DPR is equal to the applicable APR divided by 365 (or 366 in a leap year). SunTrust may use
DPR to calculate the Interest Charge as described in this Agreement. Interest Charges resulting
from the application of DPRs will accrue daily and be calculated on the Average Daily Balances
(including new transactions) for each Account feature (Purchases, Cash Advances, Balance
Transfers, Overdraft Advances, and Promotional Balances).
Due Date – This is the date by which SunTrust must receive Your payment in order for it to be on
time. Your Due Date will be stated on Your Statement. It will occur on the same calendar day of
each month. It will be at least 21 days after the date SunTrust mails Your Statement and at least
25 days after the end of Your most recently concluded Billing Period (Closing Date). To be timely,
SunTrust must receive Your payment on or before the Due Date and by the time stated on Your
Statement. If no time is stated on Your Statement, Your payment is timely if SunTrust receives
it by 5:00 p.m. Eastern Time on the Due Date; provided, however, that if You make a payment
directly to SunTrust personnel at a SunTrust branch, Your payment will be credited to Your
Account same day as the day of the payment. Payments initiated through SunTrust’s automated
telephone service, with a customer service representative, or via SunTrust’s web site will be
subject to the 5:00 p.m. payment cut-off time.
Crediting of Payments to Account: Payments that SunTrust receives prior to 5:00 p.m. Eastern
Time at the mailing address shown on the front of Your Statement and in the Standard Payment
Instructions will be credited to Your Account as of the date of receipt. Payments that SunTrust
receives after 5:00 p.m. Eastern Time will be credited as of the next day, unless You make the
payment directly to SunTrust personnel at a SunTrust branch after 5:00 p.m., as stated above.
If SunTrust accepts a payment received at any other location than the address stated in Your
Statement and in the Standard Payment Instructions, with no payment coupon enclosed, or that
does not conform to the Standard Payment Instructions, that payment may be subject to a delay
in crediting of up to 5 days after the date of receipt. This delay may result in additional Interest
Charges, Other Charges, and possible suspension of Your Account. Payments initiated through
SunTrust’s automated telephone service (if available) or via SunTrust’s web site will be subject to
the 5:00 p.m. payment cut-off time.
Grace Period – The time period during which You may avoid paying interest on certain
transactions. As stated in the Card Mailer, the Grace Period is at least 25 days after the close of
each Billing Period. This Agreement defines the kinds of transactions that are subject to a Grace
Period (See Interest Charges and Transaction Fees Section). If a particular transaction is subject
to a Grace Period, Your Account starts in a Grace Period for that transaction. The Grace Period
will continue if You pay Your New Balance on time each Billing Period. You will lose the Grace
Period if You do not pay Your New Balance in a given Billing Period. To regain Your Grace Period
after You lose it, You must pay Your New Balance on time for 1 Billing Period. If You lose Your
Grace Period for transactions to which the Grace Period previously applied, You will owe interest
on any unpaid Balance. Interest on those transactions will begin to accrue from the end of the
Billing Period for which You failed to pay Your New Balance. For any such transactions that You
make after You lose Your Grace Period, You will pay interest from the Transaction Date until the
time that You regain the Grace Period for transactions of this type.

21

Index Rate – The rate used for making variable rate adjustments to Your APR. The Index Rate
is the Prime Rate as quoted in the “Money Rates” section of The Wall Street Journal (Eastern
Edition) on the 28th day (or if the 28th day is not a business day, the next business day thereafter)
of the prior calendar month. If The Wall Street Journal (Eastern Edition) is not published or the
Prime Rate is not given on any of these dates, then the Index Rate will be determined by using
the immediately preceding published Prime Rate for such date. If the Prime Rate is no longer
available, SunTrust will choose a new index and notify You as required by applicable law. Index
Rate changes will be effective on Your Billing Period that commences on or after the first day of
the next succeeding month after the Index Rate is published. (For example, if a new Index Rate
is published on June 28th, the new APR would be effective as of the first day of the Billing Period
that commences July 1 or after). An Index Rate increase will increase the applicable APR, which
may increase Your Minimum Payment.
Interest Charge – The cost of Your Credit on the Account as a dollar amount that SunTrust derives
by applying Your DPR to the Average Daily Balance.
Items – Statements, sales drafts and/or payment instruments.
Joint Ownership Considerations – If a deposit Account (i.e. Protected Account) is jointly
owned, any owner of BOTH the deposit Account AND the Credit Card Account (i.e. the Protector
Account) may enroll in overdraft protection without the consent of the other owners of that
deposit Account. However, any owner of either the deposit Account OR Credit Card Account
may cancel overdraft protection without the consent of other owners. If a jointly owned deposit
Account is enrolled in overdraft protection: (i) all deposit Account holders will be responsible
for all overdraft protection advances regardless of which person writes a check or initiates a
transaction that causes an overdraft (e.g. as a debit Card Purchase); and (ii) all deposit Account
holders authorize us to share information about the Protected Account with each owner of
Protector Account, such as type of Account and partial Account number. We reserve the right to
cancel, suspend, or change the terms or conditions of Your overdraft protection service at any
time, for any reason.
Late Payment – A payment that You make that SunTrust does not receive before the Due Date.
Margin – The rate added to the Index Rate to determine Your APR.
Minimum Payment – The Minimum Payment due on Your Account as shown on Your Statement.
New Balance – The entire Balance of Purchases, Cash Advances, Overdraft Advances, Balance
Transfers and any Promotional Balances outstanding on Your Account on the Closing Date, plus all
accrued Interest Charges and Other Charges as of such date.
Notice Address for Arbitration – means, except as otherwise specified in the Arbitration
Provision, the address that must be used for giving notices under the Provision. The initial Notice
Address for You is the latest address SunTrust has in SunTrust’s files. The initial Notice Address for
SunTrust is: SunTrust Bank Legal Department, Attention: General Counsel – Arbitration Election,
303 Peachtree Street N.E., Suite 3600, Mail Code 0643, Atlanta, Georgia 30308, although SunTrust
may give You notice at any time that SunTrust has changed SunTrust’s Notice Address.
Other Charges – Charges to Your Account as described in the Other Charges Section of this
Agreement, including fees for: Late Payments*, Annual Fee, Returned Payments*, Stop
Payments*, Documentation*, and Phone Payments*. *SunTrust will consider reversal of
these Other Charges fees on open Accounts in good standing if circumstances warrant such
consideration, such as claims of Bank errors and other mitigating factors.
Overdraft Advance – Credit SunTrust extends to You in the form of a loan from the Account to
cover an overdraft on a deposit account that You designate at SunTrust. You must enroll in the
SunTrust overdraft protection program to receive this form of Credit.
Promotional Balance – Credit SunTrust extends for an introductory and other designated
Purchase or Balance Transfer transaction, subject to discounted fees and/or a different DPR
than your standard DPR for Purchases. Your use of a Promotional Offer from SunTrust results in a
Promotional Balance.
Promotional Rate – The DPR applied to Promotional Balances.
Protected Account – An eligible SunTrust Consumer Checking Account, Savings Account, or
Money Market Savings Account linked to this SunTrust Consumer Credit Card for overdraft
protection.
Protector Account – Your SunTrust Consumer Credit Card Account.

22

Purchase – Credit SunTrust extends to You when You or an Authorized User (1) use(s) the Card
or Account to purchase goods, labor, insurance or services through sellers and lessors that honor
Your Card or Account for the purpose of completing a Purchase or (2) use(s) a Convenience Check
or other Credit instrument that SunTrust provides for You to make a Purchase.
Returned Payment – A payment that You make that Your financial institution does not honor. If
You have a Returned Payment, SunTrust will assess a fee in accordance with the terms of this
Agreement. If SunTrust resubmits a Returned Payment and Your financial institution subsequently
honors it, SunTrust will still assess a Returned Payment fee because Your financial institution
originally returned the payment as unpaid. If Your financial institution returns a payment more
than once, SunTrust will not charge more than one Returned Payment fee. If You make a new
payment to SunTrust, however, and Your financial institution does not honor it, SunTrust will
assess an additional Returned Payment fee.
Standard Payment Instructions – These instructions require You to pay your credit Card bill as
follows. Pay (1) in U.S. dollars, (2) not in cash, unless You pay at one of SunTrust’s branches, (3)
from a U.S. deposit account or cashier’s check drawn on a U.S. financial institution, (4) without
restrictive language (e.g., “payment in full”) included or attached to the payment, and (5) not
from a credit account that SunTrust provides You, such as a Convenience Check drawn on this
Account. If You make payment in a paper form (like a check, money order, or cashier’s check),
You must include the payment coupon from Your Statement or write Your Card Account number
on the payment. If SunTrust decides in the Bank’s discretion to accept a form of payment that
does not meet these Standard Payment Instructions, SunTrust does not waive the Bank’s right to
continue to require payments that comply with these instructions. If SunTrust decides to accept
a payment that You make in a foreign currency, SunTrust will choose the conversion rate to
apply. The date You mail the payment is different from the date the Bank receives the payment.
The payment date is the date that the Bank receives Your payment in accordance with these
Standard Payment Instructions. If You fail to comply with these Standard Payment Instructions,
credit to Your Account for the payment may be delayed. This delay may result in additional
Interest Charges, Other Charges, and possible suspension of Your Account. Contact SunTrust at
866.732.1683 to inquire about phone pay. Mailed payments should be sent to:
SunTrust Bank
Cardholder Services
P.O. Box 791278
Baltimore, MD 21279-1278
NOTE: Any disagreement that You may have with respect to charges on Your Statement must be
presented to SunTrust in writing separately from your payment and to a different address than
where Your payments are sent. (See the “Your Billing Rights” Section of this Agreement.)
Statement – SunTrust will send You a bill at the end of each Billing Period if Your Account has a
debit Balance of any amount or a credit Balance of more than $1, unless SunTrust has decided
Your Account is uncollectible or has closed or suspended Your Account for collection proceedings
against You. The Statement will tell You the total Balance that You owe the Bank as of the end of
the last Billing Period. It will also tell You the Minimum Payment that You must pay the Bank by
the stated Due Date.
SunTrust – means (1) SunTrust Bank, the bank that is providing You Credit, and will include (2)
any person(s) to whom the Credit is transferred or assigned; (3) any Covered Provider; (4) the
parents, controlling persons, subsidiaries and affiliates of the companies in (1)-(3) above; (5) the
successors and predecessors of the companies in (1)-(4) above; and (6) the officers, directors and
employees of the companies in (1)-(5) above. SunTrust may also be referred to as “the Bank.”
Solely for purposes of the Arbitration Provision contained in this Agreement, the term “SunTrust”
shall also apply to any third parties if You assert a Claim against such third parties in connection
with a Claim You assert against SunTrust.
Termination Date – This is the last day a Promotional Rate will apply to a Promotional Balance.
It will be the earlier of (1) the last day specified in the Promotional Balance offer or (2) the date
identified in any notice to You when a Delinquency Triggering Event occurs.
Transaction Date – The Transaction Date of a Purchase is the sale date. The Transaction Date
of a Balance Transfer, Cash Advance, or Overdraft Advance is the date that You request such
a transaction.
You, Your and Yours – means the Cardholder(s).
1
The Personal Deposit Account Fee Schedule is accessible at https://www.suntrust.com/Static/Documents/Personal_Banking/
Deposit_Account_Disclosures/FSRETAILE.pdf.

23

The pricing addendum for the SunTrust Private Wealth Management Card is accurate as of June 30, 2021.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 2.99% to Prime Rate + 6.99%

APR for Balance Transfers

Prime Rate + 2.99% to Prime Rate + 6.99%
Your rate will be based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances
and Overdraft Advances

Prime Rate + 21.74%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging Interest on Cash Advances and Balance Transfers on the transaction
date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

Your rate will be based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Return Payment

• $0 intro annual fee for the first year, $450 thereafter. Annual Fee will be waived if the

primary account holder is a PWM client.1

• $10.00 or 3% of the amount of the transfer, whichever is greater.

• $10.00 or 4% of the amount of each advance, whichever is greater.
• None

• Up to $39
• Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new transactions).
Prime Rate: We use the prime rate quoted in the “Money Rates” section of The Wall Street Journal on the 28th day (or if the
28th day is not a business day, the next business day thereafter) of the prior calendar month.
1 Private Wealth Management (PWM) means the group within SunTrust Bank that provides a full array of Wealth Management products and professional
services to high net worth clients seeking active management of their financial resources. SunTrust Private Wealth Management is a marketing name used
by SunTrust Bank, SunTrust Banks Trust Company (Cayman) Limited, SunTrust Delaware Trust Company and SunTrust Investment Services, Inc., which
are affiliates of SunTrust Banks, Inc. Banking and trust products and services, including investment management products and services, are provided by
SunTrust Bank and its affiliates. Securities, insurance (including annuities) and investment advisory products and services are offered by SunTrust
Investment Services, Inc., an SEC registered investment adviser and broker-dealer, member FINRA, SIPC, and a licensed insurance agency.

SunTrust Bank, now Truist Bank, Member FDIC. ©2020 Truist Financial Corporation. SunTrust®, the SunTrust logo, and Truist are service marks of Truist
Financial Corporation. All rights reserved.
24

